THE SUPREME COURT OF OHIO
State of Ohio,

Case No. 2017-1505

v.

JUDGMENT ENTRY

Jaonte D. Hairston

APPEAL FROM THE
COURT OF APPEALS

FILED May-2 2019
CLERK OF COURT
SUPREME COURT OF OHIO
This cause, here on appeal from the Court of
Appeals for Franklin County, was considered in the
manner prescribed by law. On consideration thereof,
the judgment of the court of appeals is reversed,
consistent with the opinion rendered herein.
It is further ordered that a mandate be sent to
and filed with the clerk of the Court of Appeals for
Franklin County.
(Franklin County Court of Appeals; No. 16AP—294)
s/ Maureen O’Connor
Maureen O’Connor
Chief Justice

31

THE SUPREME COURT OF OHIO
Slip Opinion No. 2019-Ohio-1622
The State of Ohio, Appellant, v. Hairston, Appellee.
(No. 2017-1505—Decided May 2, 2019.)
DeWine, J.
{¶ 1} As they were responding to a radio call one
night, two police officers heard the sound of nearby
gunshots. They immediately drove a short distance to
the area where the shots seemed to be coming from
and, with guns drawn, detained the only person in the
area. A pat-down of the man revealed a handgun. The
question before us is whether this stop—a so-called
Terry stop—violated the Fourth Amendment to the
United States Constitution, see Terry v. Ohio, 392
U.S. 1, 88 S.Ct. 1868, 20 L.Ed.2d 889 (1968). The court
of appeals held that it did and concluded that the trial
court should have granted a defense motion to
suppress the handgun and other evidence obtained
during the stop. We disagree; we find no violation of
the Fourth Amendment and reverse the judgment
below.
I. Police respond to the sounds of gunshots, pat
down the only person in the area, and recover a
concealed firearm
{¶ 2} Columbus Police Officer Samuel Moore testified
to the events that are at the center of this case during
the trial court's hearing on the motion to suppress. As
Officer Moore recounted the incident, at about 9:20
one evening in March 2015, he and his partner
responded to a police dispatch about a domestic
dispute. As they were getting out of their police
cruiser, they heard the sound of four or five gunshots.
The shots “weren't faint”; rather, “they appeared to be
32

close.” The officers immediately jumped back in their
car and rushed to the area where the shots seemed to
be coming from—outside a nearby elementary school.
{¶ 3} It took the officers about 30 to 60 seconds to get
to an intersection just outside the school—a distance
by car of about four-tenths of a mile. As they
approached the intersection, they spotted an
individual whom they later identified as Jaonte
Hairston, walking away from the school into a
crosswalk while talking on a cell phone. There was no
one else around. The officers got out of the car and
with weapons drawn ordered Hairston to stop. Officer
Moore asked Hairston if he had heard the gunshots.
Hairston replied that he had. Officer Moore then
asked Hairston whether he was carrying any
weapons. Hairston said he had a gun andnodded
toward his jacket pocket. Officer Moore patted
Hairston down and retrieved a handgun from his
jacket. According to Officer Moore, at the time of the
stop, Hairston talked to the officers calmly but “was
somewhat nervous.”
{¶ 4} Following the arrest, Officer Moore wrote a
police report stating that when the officers were
exiting their cruiser, “they heard 4 to 5 gun shots west
of their location” and that they “responded to the area
where they heard the gun shots from.” In explaining
his actions, Officer Moore testified that he had
patrolled the zone where he was working that night
for his entire six-year police career. Drug activity—as
well as assaults, robberies, and domestic violence—
frequently occurred in the area around the school
during the evening hours. He had previously made
arrests there for those types of crimes, including gunrelated arrests.
33

{¶ 5} Hairston was charged with carrying a concealed
weapon in violation of R.C. 2923.12(A). He filed a
motion to suppress the evidence obtained during the
stop on the basis that the officers lacked reasonable
suspicion to detain him.
{¶ 6} Following the hearing, at which Officer Moore
was the only witness to testify, the trial court denied
the motion to suppress. Applying the United States
Supreme Court's decision in Terry v. Ohio, 392 U.S. 1,
88 S.Ct. 1868, 20 L.Ed.2d 889 (1968), the court
concluded that the officers had reasonable suspicion
to perform an investigative stop.
{¶ 7} The Tenth District Court of Appeals saw it
differently. The court reasoned that the sound of
gunfire only implied that “someone, somewhere, had
shot a gun.” 2017-Ohio-7612, 97 N.E.3d 784, ¶ 13. It
determined that there was no particularized
connection between the gunshots and Hairston:
“Hairston was simply the first person the officers saw
after driving nearly one-half mile from where they
stood when they heard the gunshots.” Id. Nor did
Hairston's actions before the stop and the
surrounding contextual factors—Hairston's presence
in an area with a high crime rate, his nervousness, or
the time of night—amount to reasonable suspicion.
Id. at ¶¶ 14-15. The appellate court reversed the trial
court's judgment and remanded the case for further
proceedings.
{¶ 8} We accepted the state's discretionary appeal.
152 Ohio St.3d 1420, 2018-Ohio-923, 93 N.E.3d 1002.
II. The officers had reasonable suspicion to stop
Hairston
{¶ 9} The Fourth Amendment to the United States
Constitution prohibits unreasonable searches and
34

seizures. Accord Ohio Constitution, Article I, Section
14.1 Its protections extend to brief investigative stops
that fall short of traditional arrests. United States v.
Arvizu, 534 U.S. 266, 273, 122 S.Ct. 744, 151 L.Ed.2d
740 (2002). An officer may perform such a stop when
the officer has a reasonable suspicion based on
specific and articulable facts that criminal behavior
has occurred or is imminent. Terry, 392 U.S. at 30, 88
S.Ct. 1868, 20 L.Ed.2d 889. And when the officer is
“justified in believing” that an individual may be
“armed and presently dangerous,” the officer may
conduct a limited protective search of the individual
for concealed weapons. Id. at 24, 88 S.Ct. 1868; Adams
v. Williams, 407 U.S. 143, 146, 92 S.Ct. 1921, 32
L.Ed.2d 612 (1972).
{¶ 10} The reasonable-suspicion standard is less
demanding than the probable-cause standard used
when analyzing an arrest. United States v. Sokolow,
490 U.S. 1, 7, 109 S.Ct. 1581, 104 L.Ed.2d 1 (1989).
The determination whether an officer had reasonable
suspicion to conduct a Terry stop must be based on the
totality of circumstances “viewed through the eyes of
the reasonable and prudent police officer on the scene
who must react to events as they unfold.” State v.
Andrews, 57 Ohio St.3d 86, 87-88, 565 N.E.2d 1271
(1991). An assessment of the totality of the
circumstances “does not deal with hard certainties,
but with probabilities.” United States v. Cortez, 449
U.S. 411, 418, 101 S.Ct. 690, 66 L.Ed.2d 621 (1981).
Article I, Section 14 of the Ohio Constitution contains nearly
identical wording to the Fourth Amendment. The parties have
not presented any argument under the Ohio Constitution; thus,
we do not consider whether different standards might apply
under the two provisions.
1

35

We consider the cumulative facts “not in terms of
library analysis by scholars, but as understood by
those versed in the field of law enforcement.” Id.
{¶ 11} Here, the cumulative facts support the
conclusion that the officers had a reasonable suspicion
to stop Hairston. First, Officer Moore personally
heard the sound of gunshots—the gunshots were not
faint and sounded close-by. This is not a case in which
the officers relied on a radio dispatch or other
secondhand information about shots being fired, e.g.,
In re D.W., 184 Ohio App.3d 627, 2009-Ohio-5406, 921
N.E.2d 1114, ¶ 32 (2d Dist.), but one in which they
heard and immediately reacted to the sound of nearby
gunfire.
{¶ 12} Second, Officer Moore knew from personal
experience that crime often occurred at night in the
area where the stop took place. Officer Moore had
worked the same beat for six years. He was familiar
with drug and other criminal activity near the school,
and he had made arrests for illegal weapons and other
crimes there in the past. An officer's experience with
criminal activity in an area and an area's reputation
for criminal activity are factors we have found
relevant to the reasonable-suspicion analysis.
Andrews at 88, 565 N.E.2d 1271; State v. Bobo, 37
Ohio St.3d 177, 179, 524 N.E.2d 489 (1988). Further,
the stop occurred after dark—another circumstance
we have found to be of some significance in the
reasonable-suspicion analysis. Bobo at 179, 524
N.E.2d 489.
{¶ 13} But the most important considerations here
are that the stop occurred very close in time to the
gunshots and Hairston was the only person in the
area from which the shots emanated. Officer Moore
36

testified that upon hearing the shots, the officers
immediately jumped in the cruiser and that it took
them only 30 to 60 seconds to get to the intersection
outside the school. When they arrived, Hairston—and
no one else—was there.
{¶ 14} We conclude that these facts, taken together
and viewed in relation to each other, rise to the level
of reasonable suspicion. In holding otherwise, the
court of appeals went through these factors
individually and discounted the significance of each
one. It determined that the facts that the officers
heard the gunshots and stopped the only person in the
area were of little moment because there was no
“particularized connection” between the gunshots and
Hairston. 2017-Ohio-7612, 97 N.E.3d 784, at ¶ 13. It
further reasoned that the contextual factors asserted
by the state—that the stop occurred at night and in
an area known to the officers for criminal activity—
provided “no additional support” to the state's claim
of reasonable suspicion. Id. at ¶ 15. It also placed
weight on the fact that Hairston did not flee when the
officers told him to stop. Id. at ¶ 14.
{¶ 15} The court of appeals went astray by focusing
on individual factors in isolation rather than on the
totality of the circumstances. Arvizu, 534 U.S. at 274,
122 S.Ct. 744, 151 L.Ed.2d 740. The reasonablesuspicion determination must be “based on the
collection of factors, not on the individual factors
themselves.” (Emphasis sic.) State v. Batchili, 113
Ohio St.3d 403, 2007-Ohio-2204, 865 N.E.2d 1282, ¶
19; accord Arvizu at 274, 122 S.Ct. 744. The court also
erred in refusing to give any weight to the contextual
factors asserted by the state. The “officers [were] not
required to ignore the relevant characteristics of [the]
37

location in determining whether the circumstances
[were] sufficiently suspicious to warrant further
investigation.” Illinois v. Wardlow, 528 U.S. 119, 124,
120 S.Ct. 673, 145 L.Ed.2d 570 (2000). Further, the
court placed undue reliance on the fact that the
suspect did not flee. See State v. Williams, 51 Ohio
St.3d 58, 59, 63, 554 N.E.2d 108 (1990) (officer had
reasonable suspicion despite defendant's lack of
flight).
{¶ 16} While the court of appeals may have been
correct in concluding that none of the individual
factors that the state relied on was sufficient in itself
to create a reasonable suspicion, we conclude that
taken together—considering the totality of the
circumstances through the eyes of a reasonable police
officer—the cumulative facts did rise to the level of
reasonable suspicion.
{¶ 17} The chief justice's dissenting opinion claims
that Officer Moore “did not have a specific idea of
where the shots came from, and he merely stopped the
first person he encountered while driving.” Dissenting
opinion, O'Connor, C.J., at ¶ 41. But this assertion is
contrary to Officer Moore's testimony that “[t]he shots
sounded as though they were coming from the west
near the elementary.” The suggestion that the officers
simply stopped the first person they saw ignores
Officer Moore's testimony that they had traveled to
and arrived at the location they believed the shots had
emanated from—the elementary school.
{¶ 18} Part of police work is investigating criminal
activity that officers detect while out on patrol. Here,
the officers did exactly what one would expect
reasonable and prudent police officers to do in their
situation. Upon hearing gunshots, they proceeded
38

No. __________

IN THE
SUPREME COURT OF THE UNITED STATES
_______________________________
JAONTE HAIRSTON, PETITIONER
V.
THE STATE OF OHIO, ET AL., RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME COURT OF OHIO

PETITION FOR A WRIT OF CERTIORARI
VOLUME II
Louis E. Grube, Esq.
Counsel of Record
Paul W. Flowers, Esq.
PAUL W. FLOWERS CO.,
L.P.A.
Terminal Tower
50 Public Square
Suite 1910
Cleveland, Ohio 44113
(216) 344-9393
leg@pwfco.com
Attorneys for Petitioner

Yeura Venters, Esq.
FRANKLIN COUNTY
PUBLIC DEFENDER
Timothy E. Pierce, Esq.
Zach D. Mayo, Esq.
Assistant Franklin
County Public Defenders

immediately to the location they believed the shots to
be coming from to investigate. Finding only Hairston
in the area and knowing that criminal activity
frequently occurred there, the officers were not
required to ignore Hairston's presence, nor was it
necessary for them to attempt to speak to him without
taking precautions for their own safety. To the
contrary, it was reasonable and prudent for the
officers to stop Hairston to see if he was the source of
or had information about the gunshots. And because
the gunshots gave the officers reason to suspect that
Hairston was armed, they were justified in patting
him down for their safety. Terry, 392 U.S. at 30-31, 88
S.Ct. 1868, 20 L.Ed.2d 889; Andrews, 57 Ohio St.3d at
89, 565 N.E.2d 1271.
{¶ 19} Thus, we conclude that the trial court's denial
of the motion to suppress was supported by
competent, credible evidence. See State v. Burnside,
100 Ohio St.3d 152, 2003-Ohio-5372, 797 N.E.2d 71, ¶
8.
III. The stop was not converted into an arrest
{¶ 20} Hairston also attempts to defend the judgment
below on a ground different from the one that the
court of appeals relied on: he argues that by
approaching him with their guns drawn, the officers
placed him under arrest and that they lacked
probable cause for the arrest. We disagree. The
officers'
suspicions
and
the
surrounding
circumstances warranted approaching Hairston with
weapons ready. And because the officers were
justified in having their weapons drawn, the showing
of firearms did not convert the stop into an arrest.
{¶ 21} Police officers may take steps that are
“reasonably necessary to protect their personal safety
39

and to maintain the status quo during the course of
[a] stop.” United States v. Hensley, 469 U.S. 221, 235,
105 S.Ct. 675, 83 L.Ed.2d 604 (1985). The “mere use
or display of force in making a stop will not
necessarily convert a stop into an arrest.” United
States v. Hardnett, 804 F.2d 353, 357 (6th Cir.1986).
Whether an investigative stop is converted into an
arrest depends on, first, whether the officers had
reasonable suspicion to make the stop, and second,
whether the degree of intrusion into the suspect's
personal security was reasonably related to the
officers'
suspicions
and
the
surrounding
circumstances. Id. at 356, citing Terry, 392 U.S. at 1920, 88 S.Ct. 1868, 20 L.Ed.2d 889.
{¶ 22} Investigating gunshots and suspects who are
potentially armed presents a dangerous situation for
the responding officers. Here, the officers were in an
area known for criminal activity and they had just
heard someone fire a gun. Their suspicions that it was
Hairston who had fired the shots and that he was still
armed justified the precautions they took in
approaching him with their weapons drawn. Because
the officers had legitimate safety concerns, the fact
that they had their guns drawn when they
approached Hairston did not convert the investigative
stop into an arrest. Hardnett at 357.
IV. Conclusion
{¶ 23} Based on the totality of the circumstances, the
police officers had reasonable suspicion to stop
Hairston. Furthermore, they did not convert the stop
into an arrest by approaching Hairston with their
weapons drawn. We reverse the judgment of the court
of appeals.
Judgment reversed.
40

Kennedy, French, and Fischer, JJ., concur.
Donnelly, J., concurs in judgment only, with an
opinion.
O'Connor, C.J., dissents, with an opinion.
Stewart, J., dissents, with an opinion joined by
O'Connor, C.J.
Donnelly, J., concurring in judgment only.
{¶ 24} I concur in judgment only. Our sole task in this
appeal is to decide whether Officer Samuel Moore
reasonably suspected that appellee, Jaonte Hairston,
was the person who fired the gunshots that police had
heard nearby in a residential neighborhood. This task
is resolved by reviewing the totality of the
circumstances, as a court does in any run-of-the-mill
suppression case in which the state asserts the
probable-cause exception established in Terry v. Ohio,
392 U.S. 1, 88 S.Ct. 1868, 20 L.Ed.2d 889 (1968).
Because there is no new standard of law to be
determined here, the most appropriate action would
be to dismiss this appeal as having been
improvidently accepted. But if we are going to address
the merits, our analysis needs to fit the facts of this
case.
{¶ 25} The majority is correct that the time of night
and high-crime reputation of an area can be relevant
in determining whether criminal activity might be
afoot. Majority opinion at ¶ 10, citing State v.
Andrews, 57 Ohio St.3d 86, 88, 565 N.E.2d 1271
(1991) (police officer reasonably suspected that a
crime might be occurring due to the suspect's flight
and other furtive movements while in the dark of
night in a high-crime neighborhood); State v. Bobo, 37
Ohio St.3d 177, 179, 524 N.E.2d 489 (1988) (police
officer reasonably suspected that a drug crime might
41

be occurring due to the suspect's furtive movements
in a vehicle while parked at night in an area of very
heavy drug activity). In Hairston's case, though, no
one disputes that Officer Moore already knew that a
crime involving the discharge of a firearm had
occurred nearby and no one disputes that the shooter
would almost certainly be armed 60 seconds after the
fact. The only relevant uncertainty was the identity of
the person who had fired the shots. Andrews and Bobo
are therefore inapposite.
{¶ 26} The fact that a crime recently occurred does not
give police officers carte blanche to stop any person
they find in the area; instead, before stopping a
person, the officers must have an objective basis for
suspecting that that particular person was involved in
the criminal activity. See United States v. Cortez, 449
U.S. 411, 417-418, 101 S.Ct. 690, 66 L.Ed.2d 621
(1981); Ybarra v. Illinois, 444 U.S. 85, 94, 100 S.Ct.
338, 62 L.Ed.2d 238 (1979) (“The ‘narrow scope’ of the
Terry exception [to the probable-cause requirement]
does not permit a frisk for weapons on less than
reasonable belief or suspicion directed at the person
to be frisked * * *”). Nothing about the time of night
or high-crime reputation of the neighborhood gave
Officer Moore any insight into the identity of the
shooter. Contrary to the majority's position, the Tenth
District Court of Appeals was correct that the
contextual factors of a nighttime stop and a highcrime area were legally irrelevant in Hairston's case.
{¶ 27} Instead, the salient facts here are that Officer
Moore personally heard the sound of the shots being
fired, immediately went to the location where the
sound had originated, and encountered Hairston in
the street in that area. Given how close Hairston was
42

to the crime, in both time and place, I would hold that
the trial court's determination of reasonable suspicion
was legally justified. See United States v. Goodrich,
450 F.3d 552, 562 (3d Cir.2006) (holding that a
suspect's “geographical and temporal proximity” to
the scene of a crime is an “important factor militating
strongly in favor of the validity of the stop”); United
States v. Fisher, 597 F.3d 1156, 1159 (10th Cir.2010)
(holding that the police were justified in stopping the
only vehicle present at the scene three minutes after
a report of shots fired).
{¶ 28} The trial judge himself noted that Hairston's
case was “a close call.” I agree. I think a perfectly
reasonable finder of fact could have come to a different
conclusion about the reliability and accuracy of
Officer Moore's testimony and could have granted
Hairston's motion to suppress. The Tenth District
seems to have arrived at that reasonable finding of
fact. The problem, though, is that an appellate court
cannot usurp the fact-finding role of the trial court.
{¶ 29} It is well established that “an appellate court
must accept the trial court's findings of fact if they are
supported by competent, credible evidence” given that
the trial court is “in the best position to resolve factual
questions and evaluate the credibility of witnesses.”
State v. Burnside, 100 Ohio St.3d 152, 2003-Ohio5372, 797 N.E.2d 71, ¶ 8. Only after accepting the
trial court's factual findings as true should the
appellate court proceed to determine whether those
facts satisfy the applicable legal standard in a motion
to suppress. Id.
{¶ 30} The Tenth District based its legal analysis on
its own conclusion that Officer Moore had no objective
knowledge about the circumstances of the crime
43

immediately preceding the Terry stop beyond the fact
that “someone, somewhere” had fired a gun. 2017Ohio-7612, 97 N.E.3d 784, ¶ 13. The sole,
unremarkable error before us in this appeal is that
the Tenth District inappropriately disregarded the
trial court's factual finding that the police knew when
and where the shots had been fired.
{¶ 31} Because the trial court appropriately weighed
the totality of the circumstances pursuant to Terry in
reaching its decision and because the appellate court
failed to defer to the trial court's factual findings
regarding those circumstances as required by
Burnside, the Tenth District's judgment should be
reversed. Again, given that the standards articulated
in Terry and Burnside are well established, a reversal
by this court is quintessential error correction. But if
the court remains committed to error correction in
this case, I join the reversal by concurring in
judgment only.
O'Connor, C.J., Dissenting.
{¶ 32} I dissent. I would conclude that the stop and
search of appellee, Jaonte Hairston, violated the
Fourth Amendment to the United States
Constitution. The facts known to the officers at the
time did not support a reasonable suspicion that
Hairston was engaged in criminal activity, the
standard the United States Supreme Court
established in Terry v. Ohio, 392 U.S. 1, 88 S.Ct. 1868,
20 L.Ed.2d 889 (1968), and that this court has applied
many times. See, e.g., State v. Andrews, 57 Ohio St.3d
86, 565 N.E.2d 1271 (1991); State v. Bobo, 37 Ohio
St.3d 177, 524 N.E.2d 489 (1988). The majority
opinion
erodes
the
constitutional
standard
44

established in Terry and creates the unwise precedent
that a police officer may conduct an investigative stop
of any person present in a so-called “high crime” area
as long as the officer has recently heard gunshots,
without any specific and articulable facts pointing
more directly to that particular person's being
engaged in criminal activity. Because I cannot
support this material erosion of the Fourth
Amendment, I dissent.
Relevant Background
{¶ 33} The majority presents one version of the facts
based on the testimony of the only witness at the
suppression hearing, Columbus Police Officer Samuel
Moore. But Officer Moore reported slightly different
facts on the department's arrest-information form,2
and those differences underscore why the stop
violated the Terry standard. Although the majority
implies that Officer Moore believed that the gunshots
came from outside a nearby elementary school, the
arrest form more generally describes the gunshots as
coming from “west of [the] location” of Officer Moore
and his partner, Officer Frederick Kaufman. The
officers' location when they heard the gunshots was
several streets away at a residence from which a
domestic dispute had been called in. At the
suppression hearing, the state introduced an aerial
photo that shows the location of the domestic-dispute
call, the school, and the intersection where the officers
stopped Hairston. The photo, which was admitted into
evidence, demonstrates that Independence High
Officer Moore corroborated the veracity of the arrest form
during cross-examination.
2

45

School was directly west of the officers' location when
they heard the gunshots. The elementary school and
the intersection where the stop took place were
southwest of the officers' location.
{¶ 34} Indeed, “west” is as close as Officer Moore was
able to pinpoint the location of the gunshots. At one
point, Officer Moore's testimony substantiates his
belief that the gunshots emanated from closer to the
high school. At the suppression hearing, the
prosecution asked Officer Moore to describe the layout
and exterior of Independence High School. Following
this line of questioning, Officer Moore stated that the
gunshots “appeared to be close. They weren't faint.
From my guesstimate, it was about the school.” At
another point, Officer Moore testified that the shots
emanated “from the west near the elementary.” The
two schools are located on one large campus.
{¶ 35} While Officers Moore and Kaufman were on
their way toward the high school, they saw Hairston
walking into the crosswalk near the elementary
school. The officers exited their cruiser with their
service weapons drawn and instructed Hairston to
show them his hands. Following that instruction,
according to the arrest form, “Officer Kaufman kept
his service weapon drawn to cover Officer Moore as he
patted down Mr. Hairston for weapons.” Then “Officer
Moore asked Mr. Hairston if he heard the gunshots to
which Mr. Hairston said he did. Officer Moore
instructed Mr. Hairston to place his hands behind his
back so he could pat him down.”
{¶ 36} At the suppression hearing, Officer Moore
affirmed the accuracy of the information he had
reported on the arrest form and testified that it was
not until after Hairston's hands were behind his back
46

in preparation for the pat-down that Moore asked
Hairston whether he had any weapons on him. The
majority notes that Officer Moore's questioning of
Hairston—during which he asked whether Hairston
was carrying any weapons and Hairston said he had
a gun and nodded toward his jacket pocket—occurred
prior to the physical pat-down, implying that the
officers' search could still have been consensual at
that point. But, as a reasonable police officer would
know, a pat-down is lawful only when the officer is
entitled to make a forcible stop. Adams v. Williams,
407 U.S. 143, 146, 92 S.Ct. 1921, 32 L.Ed.2d 612
(1972). Therefore, there is no question that at the time
the pat-down process commenced, when Officer Moore
instructed Hairston to place his hands behind his
back, a forcible stop had occurred.
{¶ 37} We must determine whether there was
reasonable suspicion to stop Hairston before that
point.
Analysis
{¶ 38} The United States Supreme Court described
the reasonable-suspicion standard in Terry, 392 U.S.
1, 88 S.Ct. 1868, 20 L.Ed.2d 889, and the standard has
changed little since then, although courts have
further defined it. “[I]n justifying the particular
intrusion the police officer must be able to point to
specific and articulable facts which, taken together
with rational inferences from those facts, reasonably
warrant that intrusion.” Id. at 21, 88 S.Ct. 1868. Terry
requires the court to “evaluate the reasonableness of
a particular search or seizure in light of the particular
circumstances.” Id. The reasonableness of the
suspicion must be judged against an objective
standard: “[W]ould the facts available to the officer at
47

the moment of the seizure or the search ‘warrant a
man of reasonable caution in the belief’ that the action
taken was appropriate?” Id. at 21-22, 88 S.Ct. 1868,
quoting Carroll v. United States, 267 U.S. 132, 162, 45
S.Ct. 280, 69 L.Ed. 543 (1925). “The propriety of an
investigative stop by a police officer must be viewed
in light of the totality of the surrounding
circumstances,” State v. Freeman, 64 Ohio St.2d 291,
414 N.E.2d 1044 (1980), paragraph one of the
syllabus, “ ‘through the eyes of a reasonable and
cautious police officer on the scene, guided by his
experience and training,’ ” id. at 295, 414 N.E.2d
1044, quoting United States v. Hall, 525 F.2d 857, 859
(D.C.Cir.1976). But the search cannot be “based on
nothing more substantial than inarticulate hunches *
* *. And simple ‘good faith on the part of the arresting
officer is not enough.’ ” Terry at 22, 88 S.Ct. 1868,
quoting Beck v. Ohio, 379 U.S. 89, 97, 85 S.Ct. 223, 13
L.Ed.2d 142 (1964).
{¶ 39} Taken together, and when viewed through the
careful eyes of a reasonably prudent law-enforcement
officer, the specific and articulable facts in this case,
in my view, did not give rise at the time the officers
stopped Hairston to reasonable suspicion that he was
engaged in criminal activity. Although the majority
recites a number of cases that contain some similar
facts that led to a finding of reasonable suspicion, the
totality of the circumstances here requires a different
conclusion.
{¶ 40} The majority seems to recognize that the sound
of gunshots in a “high crime” area is not enough to
establish reasonable suspicion for a stop in the

48

absence of other factors,3 and it therefore notes other
“important considerations” that it believes help
satisfy the standard for reasonable suspicion in this
case. Majority opinion at ¶ 13. To bolster its
conclusion that the officers had reasonable suspicion
to stop Hairston, the majority identifies what it
believes to be the two “most important considerations
here”—that “the stop occurred very close in time to
the gunshots and Hairston was the only person in the
area from which the gunshots emanated”—without
citing any precedent for the relevance of these
considerations. Id. While these may be legitimate
factors to consider, I would conclude that in this case,
the totality of the circumstances that existed at the
time the officers conducted the stop did not support a
reasonable suspicion by the officers that Hairston was
engaged in criminal activity. The majority is lowering

It is true that this court has determined that a law-enforcement
officer's knowledge at the time he is contemplating the stop that
crime is prevalent in the area is a legitimate factor to consider in
the reasonable-suspicion analysis. See Andrews, 57 Ohio St.3d at
88, 565 N.E.2d 1271; Bobo, 37 Ohio St.3d at 179, 524 N.E.2d 489.
It is also true that it is a legitimate factor to consider that the
sound of gunshots could imply that a crime may be happening
contemporaneously at a nearby location. See, e.g., State v. TallyClayborne, 378 Wis.2d 741, 2017 WI App 80, 905 N.W.2d 844, ¶
10. But these two factors alone generally are not enough. For
instance, in State v. Brooks, a Florida appellate court observed
that moments after hearing gunshots nearby, officers “may not
frisk simply because they saw two men sitting on the steps at
4:00 o'clock in the morning * * * in a ‘high crime’ area.” 281 So.2d
55, 56 (Fla.App.1973). In that case, one of the men “replied that
he had heard nothing like a shot although he and his friend said
they had been there a while.” Id. The suspect's denial was a
central factor leading the court to find reasonable suspicion. Id.
3

49

the Terry standard well below what the Constitution
allows.
{¶ 41} For a stop based, in part, on recent gunshot
sounds to be upheld, a court must find that the officer
believed that the gunshots were fired in the
immediate vicinity of the hearer such that the shooter
would not have had time to flee prior to arrival of the
officer. See State v. Tally-Clayborne, 378 Wis.2d 741,
2017 WI App 80, 905 N.W.2d 844, ¶ 10 (gunshots
came from within one block of officer's location and
officer saw suspect within 20 to 25 seconds of hearing
gunshots); People v. Basiak, 50 Ill.App.3d 155, 156157, 8 Ill.Dec. 332, 365 N.E.2d 570 (1977) (“shot
appeared * * * to have originated from around the
corner” and officers saw defendant immediately upon
turning corner). But in this case, the fact that the stop
occurred close in time to the gunshots is irrelevant
because the shots were not particularly close in
location, Officer Moore did not have a specific idea of
where the shots came from, and he merely stopped the
first person he encountered while driving in that
direction.
{¶ 42} Unlike other cases in which courts have relied
on the fact that the stop was made soon after gunshots
had been heard to support a finding of reasonable
suspicion, the officer here did not indicate that the
gunshots had been fired particularly close-by. Officer
Moore “guesstimate[d]” that the gunshots had been
fired from the west. The majority places undue
emphasis on one statement by Officer Moore that the
gunshots came from “near the elementary” school, but
ignores other testimony suggesting that the location
was directly west and near the high school. These
50

inconsistencies underscore Officer Moore's lack of
confidence in the precise location of the gunshots.
{¶ 43} But, even if we accept that the shots came from
somewhere on the campus of the two schools, Officer
Moore was still between four-tenths and a half mile
away from the location of the gunshots. That distance
is farther than the one or two blocks many courts have
considered close for purposes of supporting reasonable
suspicion when an officer immediately responded to
gunshots and found only one person or group in the
area. See Tally-Clayborne at ¶ 10 (one block);
Commonwealth v. Griffen-Jacobs, Penn.Sup.Ct. No.
1891 EDA 2016, 2017 WL 4992754, *1 (Nov. 1, 2017)
(approximately one block); Basiak at 156, 8 Ill.Dec.
332, 365 N.E.2d 570 (around the corner); State v.
Brooks, 281 So.2d 55, 56 (Fla.App.1973)(around the
block); People v. Lee, 48 Ill.2d 272, 274, 269 N.E.2d
488 (1971) (about two blocks).
{¶ 44} Even in cases in which the location of the
gunshots was very close, however, courts have
typically relied on additional evidence—that directly
implicated the defendant—to support a finding of
reasonable suspicion. In one case the state cited,
police heard gunshots while patrolling an area after
reports of gang violence. Lee at 277, 269 N.E.2d 488.
The only people they found in the vicinity of the
gunshots were wearing clothing associated with one
of the local gangs, a key factor in the court's finding
reasonable suspicion justifying the stop. Id. In
another case, the only people found in the vicinity of
the gunshots fled police, which supported a finding of
reasonable suspicion. See Griffen-Jacobs at *1-3. And
in some cases, the suspects' behavior supported a
finding of reasonable suspicion. Tally-Clayborne, 378
51

Wis.2d 741, 2017 WI App 80, 905 N.W.2d 844, at ¶ 10
(prior to search, officers saw defendant reaching for
his waistband when he started to walk away from
them); Faulkner v. State, 727 S.W.2d 793, 796
(Tex.App.1987) (suspect's truck made a quick U-turn
near location of gunshots); Brooks at 56 (gunshots
occurred at 4:00 a.m., and defendants claimed not to
have heard them despite being one block from officers'
location when officers heard the gunshots). Here, the
officer had no direct evidence suggesting Hairston
was engaged in criminal activity—he was calmly
walking in a crosswalk, speaking on a cell phone.
{¶ 45} In this case, the gunshots were not particularly
close, the officer's only definite suggestion as to the
location of the shots was “west,” and there was no
direct evidence implicating Hairston. These facts
suggest that the officers heard the shots, traveled
west, and stopped the first person they encountered.
These facts do not support the reasonable and
articulable suspicion required to justify a stop.
{¶ 46} Indeed, the other “important consideration”
that the majority relies on—that Hairston “was the
only person in the area from which the gunshots
emanated”—is similarly flawed and not a legitimate
factor supporting reasonable suspicion in this case.
Leaving aside the fact that the state did not
persuasively establish that Hairston had actually
been in the vicinity of the gunshots, it is simply not
true that Hairston was the only person in the area in
which he was stopped. Although he was the only
person seen by the officers at the time, nothing he was
doing distinguished him from the general population
so as to give rise to reasonable suspicion.
52

{¶ 47} The officers stopped Hairston in a dense
residential area. Officer Moore admitted that the area
has “a lot of houses” and that “[t]here's a lot of people
that live there in all those houses.” The aerial photo
of the area shows that the officers passed more than
three dozen houses driving from the site of the
domestic-dispute call to the intersection where they
stopped Hairston. There are hundreds more houses in
the surrounding area within a mile west of the site of
the domestic-dispute call. These circumstances are
not comparable with the cases the state cites in
support of this purported factor. In fact, it would defy
logic to compare this case to those the state cites. In
those cases, in which courts heavily relied on the fact
that the suspects were the only people found in the
vicinity of the gunshots, the vicinity was a deserted
commercial area. See State v. Brown, 232 Neb. 224,
226-228, 439 N.W.2d 792 (1989) (defendant and two
companions were found in a deserted commercial
area); Basiak, 50 Ill.App.3d at 157, 8 Ill.Dec. 332, 365
N.E.2d 570 (defendant and another man found in an
area with a closed restaurant, its parking garage, and
vacant lots).
{¶ 48} Hairston may have been the only person
Officer Moore saw while driving to the high school,
but there were certainly numerous people in the
neighborhood and, importantly, a lot of places to hide.
After firing the shots heard by the officers, the shooter
could have simply walked inside a house or hidden
behind a house or some other obstruction. Although
the officers had no duty to search each house and
yard, absent any additional specific and articulable
facts to support the officers' belief that Hairston was
engaged in criminal activity, the fact that Hairston
53

was the only person walking down the street does not
help meet the reasonable-suspicion standard.
{¶ 49} This case is also distinguishable from those in
which the defendant was the only person found in the
vicinity of gunshots in the middle of the night. See
Griffen-Jacobs, 2017 WL 4992754, at *1 (shortly after
midnight); Brown at 225, 439 N.W.2d 792
(approximately 2:00 a.m.); Faulkner at 796 (around
3:00 a.m.); Basiak at 156, 8 Ill.Dec. 332, 365 N.E.2d
570 (approximately 2:00 a.m.); Brooks, 281 So.2d at
56 (4:00 a.m.). Hairston was stopped on the street at
around 9:20 p.m. Although 9:20 is relatively late in
the evening, it is not a time that one would expect a
residential street to be deserted, in contrast with the
very late or early-morning hours when the stops in the
cited cases occurred.
{¶ 50} In asserting my belief that the officers did not
have reasonable suspicion to conduct a Terry stop of
Hairston, I in no way demean the good work being
done by law enforcement who investigate crimes and
keep the public safe every day in this state. But I fear
that the majority risks more harm to Ohioans by
lowering the bar well below the standard the
Constitution requires. In this case, officers stopped
and searched a person who appeared to be lawfully,
casually walking in a crosswalk at 9:20 p.m. in a
residential area crowded with homes. Even
considering the officers' opinion that the area in which
they found Hairston was known for its high crime rate
and one officer's “guesstimate” that Hairston was in
the vicinity of recent and close gunshots, I would
conclude that the state did not prove a reasonable
articulable suspicion sufficient to justify the stop of
Hairston. Thus, I would conclude that the state
54

violated Hairston's Fourth Amendment rights, affirm
the Tenth District's judgment, and suppress the fruits
of the search. Accordingly, I dissent.
Stewart, J., Dissenting.
{¶ 51} In this appeal, we are asked to decide a single
narrow issue: whether a person's presence near a
location police thought gunshots had recently been
fired from amounts to particularized suspicion
sufficient to conduct an investigatory stop, see Terry
v. Ohio, 392 U.S. 1, 88 S.Ct. 1868, 20 L.Ed.2d 889
(1968). In answering this question, we must either
conclude that appellee Jaonte Hairston's Fourth
Amendment rights were violated by the stop or adopt
a gunfire exception to the Fourth Amendment's
requirement that police have an objective basis for
suspecting a particular person of criminal activity
before stopping that person. The majority opinion
does the latter and thereby erodes the Fourth
Amendment's particularity requirement.
{¶ 52} Police officers stopped Hairston while he was
walking across a street in an area they guessed
gunshots had been fired from less than a minute
earlier. The majority's holding—that these facts give
rise to reasonable suspicion that Hairston had fired
the shots or was involved in some criminal activity
related to the shots such that stopping and detaining
him was lawful—cannot plausibly be squared with
decades of United States Supreme Court precedent
explaining the particularity requirement.
{¶ 53} The core issue in this case is not whether the
police had reason to believe that someone, somewhere
had committed a crime but, rather, whether they had
particularized suspicion of Hairston as the
55

perpetrator sufficient to stop him and do a pat-down
for weapons. Despite the obvious relevance of the
particularity requirement to this case, the majority
not only fails to cite any decision explaining that
requirement but actually criticizes the court of
appeals for focusing on it.
{¶ 54} When the United States Supreme Court issued
its decision in Terry over 50 years ago, thereby
creating an exception to the requirement that police
have probable cause to believe that a suspect has
committed a crime before seizing him, it was sensitive
to the fact that the decision would place certain limits
on an individual's Fourth Amendment right to be free
from government intrusion to give police the
necessary ability to respond to perceived threats to
public safety in real time. 392 U.S. at 20-23, 88 S.Ct.
1868, 20 L.Ed.2d 889. The reasonable-suspicion
standard announced in Terry was meant to balance
these two important but often competing interests. Id.
at 27, 88 S.Ct. 1868. The Supreme Court has since
remained confident in this standard by virtue of its “
‘narrow scope,’ ” which the court “ ‘has been careful to
maintain.’ ” Ybarra v. Illinois, 444 U.S. 85, 93, 100
S.Ct. 338, 62 L.Ed.2d 238 (1979), quoting Dunaway v.
New York, 442 U.S. 200, 210, 99 S.Ct. 2248, 60
L.Ed.2d 824 (1979). The hallmark of Terry's narrow
scope is that it requires particularized suspicion. See
United States v. Cortez, 449 U.S. 411, 417-418, 101
S.Ct. 690, 66 L.Ed.2d 621 (1981).
{¶ 55} Police are required to have had particularized,
not generalized, suspicion before a brief investigatory
stop may be deemed lawful. Id. at 418, 101 S.Ct. 690.
Practically speaking, this means that an officer
conducting such a stop “must be able to point to
56

specific and articulable facts which, taken together
with rational inferences,” Terry at 21, 88 S.Ct. 1868,
show “a particularized and objective basis for
suspecting the particular person stopped of criminal
activity,” Cortez at 417-418, 101 S.Ct. 690.
{¶ 56} Before determining whether the government
has met its burden of showing particularized
suspicion, a reviewing court must examine the
surrounding circumstances in their totality, including
objective observations and any reasonable deductions
or inferences that an officer might draw from them,
and examine whether “the process just described * * *
raise[s] a suspicion that the particular individual
being stopped is engaged in wrongdoing.” (Emphasis
added.) Id. at 418, 101 S.Ct. 690. As the Supreme
Court noted in Terry, and again 13 years later in
Cortez, “ ‘this demand for specificity in the
information upon which police action is predicated is
the central teaching of this Court's Fourth Amendment
jurisprudence.’ ” (Emphasis added in Cortez.) Id.,
quoting Terry at 21, fn. 18, 88 S.Ct. 1868. In other
words, police must have distinct, articulable facts
specific to the suspect in question at the time of the
stop that rise to the level of reasonable suspicion or
else the stop is unlawful under the Fourth
Amendment.
I. The trial court improperly applied a
subjective reasonable-suspicion standard
{¶ 57} At the suppression hearing in this case, Officer
Samuel Moore testified to the following specific facts:
that he heard gunshots that sounded like they were
close and coming from the west, by his “guesstimate”
from near an elementary school; that he and his
partner drove approximately a half mile, in
57

approximately 60 seconds, to an intersection near the
southeast edge of the school's campus; and that
having arrived there by the shortest route, they
encountered Hairston walking through a crosswalk
talking on his cell phone, whereupon they
immediately ordered him, with guns drawn, to stop.
Officer Moore also identified several surrounding
circumstances—namely that it was nighttime, that he
knew that the area around the school was a “high
crime” area, and that it was also a residential area
with a lot of houses. On direct examination, when
asked whether he had seen anyone else near the
school when the stop occurred, Officer Moore testified
that he could not recall, nor could he recall whether
he had seen any other vehicles driving by. The
significance of these latter facts cannot be overstated,
as more fully discussed below.
{¶ 58} Based on this limited testimony, the trial court,
applying an incorrect, subjective standard, denied
Hairston's motion to suppress. Specifically, the trial
court stated: “So I think it's a close call because, you
know, what's a reasonable suspicion probably varies
from one individual to the next. But with all the facts
that were testified to by the officer, I think they had
enough to do a Terry stop. So I'll deny the motion.”
(Emphasis added.)
{¶ 59} Literally the first principle of applying the
reasonable-suspicion standard is that it does not vary
from one individual to the next. The standard is an
objective one, not a subjective one. See Terry, 392 U.S.
at 21, 88 S.Ct. 1868, 20 L.Ed.2d 889 (“it is imperative
that the facts be judged against an objective
standard”). Neither the majority opinion nor the
concurring opinion discusses the trial court's
58

application of a subjective standard, obvious though it
is. Nor do they bother to consider how the trial court's
standard would necessarily impact a reviewing court's
analysis. Indeed, both opinions sweep the error aside
by incorrectly declaring that the trial court applied
the standard established in Terry. That is not what
happened. Although the trial court mentioned the
Terry standard, no reviewing court could look at the
trial court's remarks and reasonably conclude that it
correctly applied the Terry standard.
{¶ 60} Importantly, the trial court's application of the
wrong standard also impacts appellate consideration
of its factual findings, including any conclusions and
inferences drawn from them. “Appellate review of a
motion to suppress presents a mixed question of law
and fact.” State v. Burnside, 100 Ohio St.3d 152, 2003Ohio-5372, 797 N.E.2d 71, ¶ 8. What this means is
that a reviewing court “must accept the trial court's
findings of fact if they are supported by competent,
credible evidence,” id., citing State v. Fanning, 1 Ohio
St.3d 19, 437 N.E.2d 583 (1982); then, “[a]ccepting
these facts as true, the appellate court must * * *
independently determine, without deference to the
conclusion of the trial court, whether the facts satisfy
the applicable legal standard”—in other words, it
must review the legal conclusion de novo. Id. It is
indisputable that the trial court made only a few
factual findings in this case, the entirety of which are
as follows:
[I]n this case the officers personally heard the shots,
personally knew where they came from * * *.
[T]hey personally heard them and went in that
direction, and the officer said it only took them a
minute or so to get there. And you asked him if he had
59

a hunch, and he said yeah. Well, he did have a hunch,
but that doesn't necessarily mean that he didn't have
a little more than a hunch when he only saw one
person in the area and didn't see any other cars.
{¶ 61} Upon review of these findings, it is unclear
whether the trial court reached them by improperly
deferring to Officer Moore's view of the situation—as
it appears—or by properly using its own independent
judgment about what a reasonably prudent officer
encountering the same situation would think and do.4
Indeed, given the lack of competent and credible
evidence supporting these findings, it seems more
likely that the trial court improperly deferred to
Officer Moore's personal belief that he not only had
arrived at “where” the shots “came from” but once
encountering Hairston there, had particularized
suspicion sufficient to stop him. For the trial court to
admit that its decision was a “close call” even while
deferring to the subjective suspicions of Officer Moore,
rather than considering the objective observations of
As noted by the Supreme Court in Terry:
The scheme of the Fourth Amendment becomes meaningful only
when it is assured that at some point the conduct of those
charged with enforcing the laws can be subjected to the more
detached, neutral scrutiny of a judge who must evaluate the
reasonableness of a particular search or seizure in light of the
particular circumstances. And in making that assessment it is
imperative that the facts be judged against an objective
standard: would the facts available to the officer at the moment
of the seizure or the search “warrant a man of reasonable caution
in the belief” that the action taken was appropriate?
(Footnote omitted.) Id. at 21-22, 88 S.Ct. 1868, quoting Carroll
v. United States, 267 U.S. 132, 162, 45 S.Ct. 280, 69 L.Ed. 543
(1925).
4

60

a reasonably prudent police officer, casts serious
doubt on whether the court would have reached the
same conclusion if it had applied the correct standard.
The majority and concurring opinions' deference to
the trial court's factual findings is therefore baffling.
At the very least, what this court should do is look at
these determinations with a critical eye and explain
why they are supported by competent and credible
evidence, before determining whether they support a
finding of particularized suspicion. Noticeably, both
opinions skip this step.5
II. The police lacked a reasonable basis for
particularized suspicion of Hairston
{¶ 62} When taken together, the facts and
circumstances identified by the police in this case, and
any reasonable inferences that can be drawn from
them, are too attenuated to support particularized
suspicion that Hairston fired the shots or was
involved in any way with the gunfire. At a minimum,
what is missing is some fact or reasonable factual
Toward the end of its opinion, the majority cites this court's
decision in Burnside and states, “Thus, we conclude that the trial
court's denial of the motion to suppress was supported by
competent, credible evidence.” Majority opinion at ¶ 19, citing
100 Ohio St.3d 152, 2003-Ohio-5372, 797 N.E.2d 71. This
statement is perplexing for a couple of reasons. First, it shows
that the majority has applied the competent-and-credibleevidence standard that we use when reviewing a trial court's
factual determinations to its review of the ultimate legal
question, which is supposed to be de novo. The statement reflects
a lack of understanding regarding proper appellate review of
suppression rulings. Second, at no point in its opinion does the
majority take the time to actually look at the evidence
supporting the trial court's decision and determine that it is in
fact competent and credible.
5

61

inference that would connect Hairston to a potential
crime.
{¶ 63} The closest thing we have in this regard,
although it still hits wide of the mark, is Hairston's
walking across a street in the area the officer guessed
the gunfire might have originated. But neither the
trial court's finding that Hairston was the sole person
in the area nor the officer's guess as to the origin of
the gunfire is supported by competent and credible
evidence.
{¶ 64} First of all, Officer Moore's testimony was that
he did not recall seeing any other people or vehicles
nearby, and the police report never mentions that
Hairston was the only person in the area. This is an
important distinction that the majority and
concurring opinions also do not discuss. If a finding of
particularized suspicion depends on the fact that the
person stopped was the only person in the vicinity of
suspected criminal activity, then it is of utmost
importance that the person actually was the only one
there. Officer Moore's inability to recall whether
Hairston was the only person seen in the area greatly
erodes a reasonable basis for particularized suspicion
in this case. Indeed, if this alleged fact did form the
basis for the officer's suspicion of Hairston, then the
officer should have had no problem recalling whether
he had seen anyone else around. The officer's
uncertainty on this point significantly undermines
the trial court's finding that Hairston was the only
one in the vicinity—as does the fact that the area
surrounding the school's campus and where Hairston
was stopped was also a densely populated
neighborhood, a fact that the chief justice's dissent
examines in detail.
62

{¶ 65} Further, nothing about the officer's testimony
suggests that his guess as to the location of the
gunfire was a particularly good one or indeed was
based on anything more than conjecture. For a
reviewing court to find particularized suspicion based
solely on the location of a stop, the officer's guess must
be supported by some objective indicia of reliability.
As the United States Supreme Court has explained:
Reasonable suspicion, like probable cause, is
dependent upon both the content of information
possessed by police and its degree of reliability. Both
factors—quantity and quality—are considered in the
“totality of the circumstances—the whole picture”
that must be taken into account when evaluating
whether there is reasonable suspicion.
Alabama v. White, 496 U.S. 325, 330, 110 S.Ct. 2412,
110 L.Ed.2d 301 (1990), quoting Cortez, 449 U.S. at
417, 101 S.Ct. 690, 66 L.Ed.2d 621.
{¶ 66} Generally, in a Fourth Amendment case, the
prosecution would show that what would otherwise
appear to be mere speculation by a police officer was
actually a reasonable inference by eliciting from the
officer testimony describing how his training or
specialized experience led him to draw the inference.
See United States v. Padilla, 548 F.3d 179, 187 (2d
Cir.2008), quoting United States v. Arvizu, 534 U.S.
266, 273, 122 S.Ct. 744, 151 L.Ed.2d 740 (2002)
(“While the officer may not rely on an ‘inchoate and
unparticularized suspicion or “hunch,” ’ [Terry] at 27,
88 S.Ct. 1868 [20 L.Ed.2d 889], he is entitled to ‘draw
on [his] own experience and specialized training to
make inferences from and deductions about the
cumulative information available to [him] that might
63

well elude an untrained person’ ” [brackets sic] ). But
Officer Moore did not do so in his testimony.
{¶ 67} During his testimony, Officer Moore offered no
insights into how his training or experience aided him
in determining the origin of a sound from a distance
of nearly a half mile away, nor did he explain why
Hairston—who was merely walking across the street
and talking on his cell phone near the assumed
location—should have been seen as particularly
suspicious. Similarly, Officer Moore offered no
explanation as to why his search for suspects zeroed
in on the precise location where Hairston was stopped
(which happened to be only one small corner of the
elementary school's otherwise large campus) instead
of extending to the whole area surrounding the school,
including its numerous playing fields and
outbuildings.6
{¶ 68} It was the lack of factual specificity, in terms
of both quantity and quality, connecting Hairston to
any suspected criminal activity that ultimately
resulted in reversal by the court of appeals. The
majority and concurring opinions fail to provide any
reasons why the appellate court might have been
The chief justice's dissenting opinion also highlights how
Officer Moore equivocated when testifying about the suspected
location of the gunfire and emphasizes that his police report
specifies only that the gunfire came from the “west.” Again, if
nothing more than a person's presence near the location of
suspected criminal activity can give rise to reasonable suspicion
of that person, then there must be competent and credible
evidence supporting the fact that the officers' determination of
the location is more than a mere guess. Officer Moore's lack of
specificity and continual equivocation undermine the factual
credibility determination that the trial court made in this case.
6

64

incorrect in concluding that the prosecution failed to
satisfy the particularity requirement, and they
blindly defer to the trial court's unsupported factual
findings.
III. The court of appeals properly examined the
totality of the circumstances
{¶ 69} Rather than consider whether the police had
the particularized reasonable suspicion required to
conduct a Terry stop, the majority opinion focuses on
facts and circumstances that are irrelevant to that
determination. Specifically, the majority opinion
claims that the appellate court “went astray by
focusing on individual factors in isolation rather than
on the totality of the circumstances,” “refusing to give
any weight to the contextual factors asserted by the
state” and placing undue weight on the fact that
Hairston did not flee when the officers approached.
Majority opinion at ¶ 15. As convenient as these
characterizations may be for arriving at the majority's
end result, they are not accurate. Even if they were,
that would not matter.
{¶ 70} Nothing about the appellate court's decision
suggests that it looked at individual factors in
isolation. Not only did the court explain that its task
was to examine the totality of the circumstances from
the objective viewpoint of a reasonable police officer,
but it also explained that the Fourth Amendment
requires “ ‘a particularized and objective basis for
suspecting the particular person stopped of criminal
activity,’ ” 2017-Ohio-7612, 97 N.E.3d 784, ¶ 10,
quoting Cortez, 449 U.S. at 417-418, 101 S.Ct. 690, 66
L.Ed.2d 621. Analyzing the circumstances objectively,
the appellate court accepted the facts that the officers
heard gunshots, that they sounded as if they had come
65

from the west, that the officers came upon Hairston
after traveling in that general direction, that it was
nighttime in a “high crime” area, and that Hairston
appeared nervous once the police stopped him with
their guns drawn. But when looking at these facts as
a whole, the appellate court correctly determined that
a crucial piece was missing. That crucial piece, a
central requirement under the Fourth Amendment, is
some indication giving rise to a reasonable suspicion
“that the particular individual being stopped,” Cortez
at 418, 101 S.Ct. 690—Hairston—“[had] engaged” in
particular “wrongdoing,” id.—firing a gun.
{¶ 71} In the absence of any objective, articulable
facts reasonably linking Hairston in particular to the
gunshots, contextual factors such as the time of day
and the area's reputation are of scant analytical
value. See, e.g., Brown v. Texas, 443 U.S. 47, 52, 99
S.Ct. 2637, 61 L.Ed.2d 357 (1979); United States v.
Young, 707 F.3d 598, 603 (6th Cir.2012); Bennett v.
Eastpointe, 410 F.3d 810, 830 (6th Cir.2005). The
concurring opinion understands this, noting that the
appellate court was “correct that the contextual
factors of a nighttime stop and a high-crime area were
legally irrelevant in Hairston's case.” Concurring
opinion at ¶ 26. Contrary to the majority's apparent
belief, this context by itself does not give rise to the
particularized suspicion required for police to stop
any individual who happens to be present in that
context. Rather, all context alone can do is lend
support to an officer's inferences that a person's
conduct, which might otherwise be wholly innocuous
in another context, is reasonably suspicious in the
present context.
66

{¶ 72} Suppose, for example, that an officer observes
a person handing a paper bag through a car window
to another. In the nighttime, in a neighborhood with
a high crime rate, passed between people moving
skittishly, it might be reasonable to suspect that the
bag contains contraband. Outside a playground on a
sunny morning, handed by an adult to a child, the bag
is probably lunch. What we are missing in this case
are the handoff and the bag—in other words, the
particularized suspicion.
{¶ 73} The majority chides the appellate court for
focusing part of its analysis on the fact that Hairston
did not flee when approached by the police.
Specifically, the majority states that “the court placed
undue reliance on [this] fact,” majority opinion at ¶
15, and then, as if to support its statement, cites the
inapposite case of State v. Williams, in which we
upheld a police officer's decision to stop and frisk a
suspect, despite the suspect's lack of flight, when the
officer was able to articulate a number of other
suspicious behaviors linking the suspect to a nearby
illegal marijuana operation. 51 Ohio St.3d 58, 61-62,
554 N.E.2d 108 (1990). What the majority fails to
realize is that it is exploiting the same type of divideand-conquer method that it unfairly accuses the
appellate court of misusing. The fact that Hairston
did not flee when approached by the officers is part of
the totality of the circumstances. The appellate court
therefore correctly considered it.
{¶ 74} For the majority to say that the appellate court
gave the fact that Hairston did not flee “undue
reliance” ignores the reason for discussing it at all—
namely, to highlight the paucity of facts and
reasonable inferences that could have led a
67

reasonably prudent police officer to suspect Hairston
of wrongdoing, or indeed of any doing. Having found
nothing that would reasonably connect Hairston to
the gunfire, the appellate court discussed what might
have contributed to reasonable suspicion if certain
facts had existed—in this case, flight. It is not illogical
that the court would discuss this; there are times
when there is so little connecting a person to a crime
that police point broadly to a suspect's attempt to
elude them. See Illinois v. Wardlow, 528 U.S. 119,
124, 120 S.Ct. 673, 145 L.Ed.2d 570 (2000) (“Headlong
flight—wherever it occurs—is the consummate act of
evasion: It is not necessarily indicative of wrongdoing,
but it is certainly suggestive of such”); United States
v. Lawshea, 461 F.3d 857, 860 (7th Cir. 2006) (“while
mere presence in a high-crime area does not in and of
itself justify an investigatory stop, suspicious flight,
no matter the area, does”). The appellate court
properly noted that there was no suspicious flight in
this case.
{¶ 75} Although it is not totally clear—because again,
the majority does not deign to acknowledge the
particularity requirement—it seems that the majority
is trying to concoct particularized suspicion out of the
fact that Hairston happened to be in an area the police
believed gunshots were fired from approximately a
minute earlier. But as explained above, the officer's
speculation about the gunshots' origin is accompanied
by no indicia of reliability. Without at least some such
indicia, nothing about these facts, contextual or
otherwise, allows a court to infer that a reasonably
prudent police officer would have found Hairston's
presence in that area suspicious in and of itself.
Indeed, if any doubt remains as to the reliability of the
68

officers' observations that led to the stop, the majority
need look no further than Officer Moore's sworn
testimony at the suppression hearing stating that he
“guesstimate[d]” the location of gunfire and that he
proceeded to stop Hairston based on a “hunch.”
{¶ 76} Although the majority correctly observes that
the Fourth Amendment's reasonable-suspicion
requirement does not deal in certainties, it forgets
that the requirement also does not deal in
unsupported guesses and hunches. See Terry, 392
U.S. at 27, 88 S.Ct. 1868, 20 L.Ed.2d 889 (reasonable
suspicion requires more than an “inchoate and
unparticularized suspicion or ‘hunch’ ”). And yet
today, the majority announces that in the seventh
most populous state in the nation, a guess and a
hunch are sufficient for a Terry stop.
{¶ 77} By Officer Moore's own account, Hairston was
not doing anything suspicious when the officers
spotted him. He was walking calmly through a
crosswalk while talking on his cell phone. It was not
until Officer Moore and his partner exited their
vehicle with guns drawn and ordered Hairston to stop
that Hairston gave any indication that he might be
nervous. Even so, Officer Moore acknowledged on
cross-examination that it is not unreasonable for a
person to become nervous with guns pointed at him.
But regardless of the reason for it, the fact that
Hairston appeared nervous does not much matter
since the nervousness was observed only after he was
ordered to stop. Anything that happened thereafter is
immaterial. The fact that the state relies on
Hairston's apparent nervousness after he was ordered
to stop to support its position that the police had
particularized suspicion before the stop—and the fact
69

that the majority mentions it twice in its opinion—
highlights just how precarious the factual
justification for the stop was in this case. When the
police stopped Hairston, all they knew or could
reasonably infer was that Hairston was walking
through a “high crime” area in which gunshots may
have been recently fired. But “[a]n individual's
presence in an area of expected criminal activity,
standing alone, is not enough to support a reasonable,
particularized suspicion that the person is committing
a crime.” Wardlow, 528 U.S. at 124, 120 S.Ct. 673, 145
L.Ed.2d 570, citing Brown v. Texas, 443 U.S. 47, 99
S.Ct. 2637, 61 L.Ed.2d 357 (1979).
IV. There is no “gunfire” or “firearm” exception
to the particularity requirement
{¶ 78} The state in this case dedicated a large portion
of its briefing to what essentially boils down to an
argument advocating for a “gunfire exception” to the
particularity requirement of the Fourth Amendment.
In response to Hairston's arguments that police could
not reasonably have had particularized suspicion
based solely on his location and that they could have
continued to surveil him for suspicious activity rather
than descend upon him with guns drawn and order
him to stop, the state argues that the police must be
able to respond “differently” when reacting to gunfire.
Specifically, the state contends that “an officer who is
responding to recent gunfire must have complete
command of the scene. A responding officer must be
able to protect himself or herself and others by having
his or her gun drawn and ready, and the officer must
be able [to] acquire information from individuals at
the scene.” (Emphasis added.)
70

{¶ 79} The state cites decisions—namely, State v.
Johnson, 8th Dist. Cuyahoga Nos. 71249 and 71250,
1997 WL 661882 (Oct. 23, 1997), and United States v.
Roberson, 90 F.3d 75, 81 (3d Cir.1996), fn. 4—
suggesting that police officers should not have to
ensure they are acting on reliable information when
stopping a person based on a tip that the person is
carrying a weapon. Lost on the state, however, is that
the United States Supreme Court has already
declined to adopt under the Fourth Amendment a
“firearm exception” applicable to when the suspected
criminal activity involves an illegal gun, making clear
that in such cases, police remain subject to the
requirement that the information upon which they act
must bear standard indicia of reliability before they
may conduct a Terry stop. See Florida v. J.L., 529 U.S.
266, 120 S.Ct. 1375, 146 L.Ed.2d 254 (2000). Writing
for a unanimous court, Justice Ginsburg explained:
A second major argument advanced by Florida and
the United States as amicus is, in essence, that the
standard Terry analysis should be modified to license
a “firearm exception.” Under such an exception, a tip
alleging an illegal gun would justify a stop and frisk
even if the accusation would fail standard pre-search
reliability testing. We decline to adopt this position.
Firearms are dangerous, and extraordinary dangers
sometimes justify unusual precautions. Our decisions
recognize the serious threat that armed criminals
pose to public safety; Terry's rule, which permits
protective police searches on the basis of reasonable
suspicion rather than demanding that officers meet
the higher standard of probable cause, responds to
this very concern. See 392 U.S. at 30, 88 S.Ct. 1868
[20 L.Ed.2d 889]. But an automatic firearm exception
71

to our established reliability analysis would rove too
far.
Id. at 272, 120 S.Ct. 1375.
{¶ 80} Simply put, there is no special exception to the
Fourth Amendment's particularity requirement for
gun cases. See id.; see also Chandler v. Miller, 520
U.S. 305, 308, 117 S.Ct. 1295, 137 L.Ed.2d 513 (1997)
(“the Fourth Amendment's “restraint on government
conduct generally bars officials from undertaking a
search or seizure absent individualized suspicion”).
And yet the fact that the majority effortlessly reverses
the appellate court's unanimous decision with an
incomplete outline of Fourth Amendment law and a
brief analysis of the facts tends to show that the
majority's holding does not derive from a genuine
application of Fourth Amendment law but, rather,
from a position that mirrors the state's—that police
officers should be allowed to stop anyone when
investigating suspected gunfire. Indeed, the
majority's statement that “it was reasonable and
prudent for the officers to stop Hairston to see if he
was the source of or had information about the
gunshots,” majority opinion at ¶ 18, is not so far off
from the state's position that officers responding to
gunfire “must be able [to] acquire information from
individuals at the scene” (emphasis added). Both
statements show a predisposition to believe that there
is, or should be, a gunfire or firearm exception to the
Fourth Amendment's particularity requirement. But
there is not. Indeed, neither the state nor the majority
have pointed to a single case where a court has found
it reasonable and prudent for a police officer to
conduct a nonconsensual stop of a person just to see
whether he has information about a crime involving
72

gunfire.7 Rather, in such circumstances, a brief
investigatory stop of a person is reasonable under the
Fourth Amendment only if the police reasonably
suspect that the particular person either has
committed the crime or is about to commit the crime.
{¶ 81} Such particularized suspicion is wholly absent
in this case. I therefore dissent and would conclude
that the court of appeals correctly determined that
Hairston's Fourth Amendment rights were violated
and that the fruits of that constitutional violation
should be suppressed.
O'Connor, C.J., concurs in the foregoing opinion.

This is not to say that police officers investigating suspected
criminal activity cannot approach an individual to ask questions
or to secure a scene. It also goes without saying that an officer
would reasonably have his weapon at the ready when
investigating suspected gunfire. To be clear, this opinion is
restricted to a constitutional analysis of whether evidence
obtained from the officers' stop of Hairston and their subsequent
search of him should be suppressed on Fourth Amendment
grounds. It is not a weigh-in on the procedures or protocols of
policing.
7

73

IN THE COURT OF APPEALS OF OHIO
TENTH APPELLATE DISTRICT
State of Ohio,
Plaintiff-Appellee,
v.
Jaonte D. Hairston,
Defendant-Appellant.

No. 16AP-294
(C.P.C. No. 15CR-3377)
(REGULAR CALENDAR)

JUDGMENT ENTRY
For the reasons stated in the decision of this
court rendered herein on September 14, 2017, having
sustained appellant's sole assignment of error, it is
the judgment and order of this court that the
judgment of the Franklin County Court of Common
Pleas is reversed and the case is remanded for
proceedings consistent with the decision of this court.
Costs are to be assessed against appellee.
HORTON, BROWN & LUPER SCHUSTER, JJ.
S/JUDGE
Tenth District Court of Appeals
Date:
Case Title:
Case Number:
Type:

09-19-2017
STATE OF OHIO -VS- JAONTE
D HAIRSTON
16AP000294
JEJ - JUDGMENT ENTRY

So Ordered
THE GREAT SEAL OF THE STATE OF OHIO
s/ Judge Timothy Horton
74

OHIO COURT OF APPEALS, TENTH JUDICIAL
DISTRICT
The State of Ohio, Appellee, v. Hairston, Appellant.
(No. 16AP-294—Decided Sept. 14, 2017.)
HORTON, J.
{¶ 1} Jaonte D. Hairston appeals from the decision of
the Franklin County Court of Common Pleas
overruling his motion to suppress. For the reasons set
forth below, we reverse and remand.
I.
FACTUAL
AND
PROCEDURAL
BACKGROUND
{¶ 2} Hairston was indicted on one fourth-degree
felony count of carrying a concealed weapon, in
violation of R.C. 2923.12, for an offense alleged to
have occurred on or about March 29, 2015. (July 10,
2015 Indictment.) Hairston filed a motion to suppress
the evidence and statements that the state intended
to introduce as evidence to prove its case, alleging that
they were the fruits of an unconstitutional search and
seizure. (Dec. 22, 2015 Mot.)
{¶ 3} The trial court held an evidentiary hearing on
the motion on February 8, 2016. At the hearing, the
state called Officer Samuel Moore as its sole witness.
(Feb. 6, 2016 Tr. at 3–4.) Officer Moore testified that
while on patrol on March 29, 2015, he responded to a
call concerning a domestic dispute at approximately
9:00 p.m. (Tr. at 5–6.) When he and his partner exited
the patrol vehicle at the address of the dispute, Officer
Moore heard four or five gunshots coming from the
west, in the direction of a nearby elementary school.
(Tr. at 7.) Drug activity, thefts, assaults, and crimes
involving guns had occurred in the neighborhood and
near the elementary school and a neighboring high
75

school, and Officer Moore had personally made
arrests for such offenses. (Tr. at 8–9.) After hearing
the gunshots, he and his partner returned to the car
and drove in the direction of the elementary school,
four-tenths of a mile away, where they arrived “no
more than 30, 60 seconds” later. (Tr. at 9, 16, & 29.)
{¶ 4} As they were approaching the school, Officer
Moore saw Hairston walking east, away from the
school, across a crosswalk, talking on a cell phone. (Tr.
at 9 & 24.) At this time, it was dark out and no other
people were around. (Tr. at 15.) Officer Moore and his
partner exited their vehicle with their guns drawn
and ordered Hairston to stop. (Tr. at 24.) They asked
Hairston if he had had heard gunshots and he replied
that he had heard gunshots coming from the west. (Tr.
at 11.) Officer Moore asked Hairston whether he had
any weapons on his person, and instructed him to
place his hands behind his back in order to perform a
pat-down. (Tr. at 25.) Hairston replied that he had a
gun and “nodded towards his left jacket pocket,”
where Officer Moore found a semiautomatic pistol.
(Tr. at 9–10.) Officer Moore described Hairston's
demeanor as “a little nervous,” but stated that
Hairston was “compliant” and “calmly” answered the
officers' questions. (Tr. at 17.)
{¶ 5} After Officer Moore's testimony, the trial court
heard the attorneys' arguments and overruled
Hairston's motion. Ruling from the bench, the trial
court found that the officers:
[P]ersonally heard [the gun shots] and went in that
direction, and the officer said it only took them a
minute or so to get there. And you asked him if he had
a hunch, and he said yeah. Well, he did have a hunch,
but that doesn't necessarily mean that he didn't have
76

a little more than a hunch when he only saw one
person in the area and didn't see any other cars. All
he has to have is a reasonable suspicion to question
the suspect, and that's what he did, and that led to the
discovery of the firearm.
So I think it's a close call because, you know, what's a
reasonable suspicion probably varies from one
individual to the next. But with all the facts that were
testified to by the officer, I think that they had enough
to do a Terry [v. Ohio, 392 U.S. 1, 88 S.Ct. 1868, 20
L.Ed.2d 889 (1968) ] stop. So I'll deny the motion.
(Tr. at 44.)
{¶ 6} After the trial court overruled the motion to
suppress, Hairston entered a plea of no contest. (Mar.
18, 2016 Entry.) The trial court imposed a suspended
prison term of six months. (Mar. 22, 2016 Jgmt.
Entry.)
{¶ 7} Hairston now appeals and asserts the following
assignment of error:
THE TRIAL COURT ERRED WHEN IT
OVERRULED THE DEFENDANT'S MOTION TO
SUPPRESS
THE
EVIDENCE
OBTAINED
FOLLOWING THE UNLAWFUL SEIZURE OF THE
DEFENDANT, AT GUNPOINT, MADE WITHOUT
ANY ARTICULABLE SUSPICION TO BELIEVE
THAT HE HAD COMMITTED ANY OFFENSE.
II. STANDARD OF REVIEW
{¶ 8} “Appellate review of a motion to suppress
presents a mixed question of law and fact.” State v.
Burnside, 100 Ohio St.3d 152, 2003-Ohio-5372, 797
N.E.2d 71, ¶ 8. This court “must accept the trial
court's findings of fact if they are supported by
competent, credible evidence.” Id., citing State v.
Fanning, 1 Ohio St.3d 19, 20, 437 N.E.2d 583 (1982).
77

“Accepting these facts as true, the appellate court
must then independently determine, without
deference to the conclusion of the trial court, whether
the facts satisfy the applicable legal standard.” Id.,
citing State v. McNamara, 124 Ohio App.3d 706, 710,
707 N.E.2d 539 (4th Dist. 1997). Thus, “
‘[d]eterminations of reasonable suspicion and
probable cause should be reviewed de novo on appeal.’
” Columbus v. Ellyson, 10th Dist. No. 05AP-573, 2006Ohio-2075, 2006 WL 1102765, ¶ 4, quoting Ornelas v.
United States, 517 U.S. 690, 699, 116 S.Ct. 1657, 134
L.Ed.2d 911 (1996).
III. ANALYSIS
{¶ 9} “The Fourth Amendment to the United States
Constitution as applied to the states through the
Fourteenth Amendment, as well as
Ohio
Constitution, Article I, Section 14, prohibit the
government from conducting warrantless searches
and seizures, rendering them per se unreasonable
unless an exception applies.” State v. Goodloe, 10th
Dist. No. 13AP-141, 2013-Ohio-4934, 2013 WL
5972402, ¶ 6, citing State v. Mendoza, 10th Dist. No.
08AP-645, 2009-Ohio-1182, 2009 WL 690204, ¶ 11,
citing Katz v. United States, 389 U.S. 347, 357, 88
S.Ct. 507, 19 L.Ed.2d 576 (1967). One exception is an
investigatory stop, commonly referred to as a Terry
stop, under which “a police officer may stop or detain
an individual without probable cause when the officer
has reasonable suspicion, based on specific,
articulable facts, that criminal activity is afoot.” State
v. Jones, 188 Ohio App.3d 628, 2010-Ohio-2854, 936
N.E.2d 529, ¶ 16 (10th Dist.), citing Terry v. Ohio, 392
U.S. 1, 21–22, 88 S.Ct. 1868, 20 L.Ed.2d 889 (1968).
78

{¶ 10} Under Terry, “the police officer must be able to
point to specific and articulable facts which, taken
together with rational inferences from those facts,
reasonably warrant” the warrantless seizure of the
defendant. Terry at 21, 88 S.Ct. 1868. “The propriety
of an investigative stop by a police officer must be
viewed in light of the totality of the surrounding
circumstances.” State v. Freeman, 64 Ohio St.2d 291,
293, 414 N.E.2d 1044 (1980), paragraph one of the
syllabus. Furthermore, Terry requires that “the facts
be judged against an objective standard: would the
facts available to the officer at the moment of the
seizure or the search ‘warrant a man of reasonable
caution in the belief’ that the action taken was
appropriate?” Terry at 21–22, 88 S.Ct. 1868, quoting
Carroll v. United States, 267 U.S. 132, 162, 45 S.Ct.
280, 69 L.Ed. 543 (1925). Under this standard, “the
totality of the circumstances—the whole picture”
must demonstrate “a particularized and objective
basis for suspecting the particular person stopped of
criminal activity.” United States v. Cortez, 449 U.S.
411, 417–18, 101 S.Ct. 690, 66 L.Ed.2d 621 (1981). “At
a hearing on a motion to suppress, the state bears the
burden of proving that a warrantless search or seizure
meets
Fourth
Amendment
standards
of
reasonableness.” State v. Williams, 10th Dist. No.
02AP-730, 2003-Ohio-5204, 2003 WL 22232921, ¶ 35.
{¶ 11} Hairston argues that his seizure was not
authorized under Terry because the officers stopped
him on no more than a hunch, without any
particularized suspicion of criminal activity.
(Appellant's Brief at 9–27.) Furthermore, Hairston
argues that stopping him at gunpoint constituted an
elevated infringement of his liberty interests that
79

required a “higher degree of suspicion” than existed
under the circumstances. (Appellant's Brief at 32.)
{¶ 12} In response, the state argues that even apart
from the officer's hunch that Hairston fired the shots,
the totality of the circumstances demonstrated
reasonable suspicion. The state points to “the
proximity of the shots, timing and absence of anyone
else in the area,” the location in an area of known
crime, the time the shots were fired, and Hairston's
apparent nervousness at the scene. (Appellee's Brief
at 8–9.) The state also argues that stopping Hairston
at gunpoint was a reasonable display of force, given
that the officers had just heard gunshots. (Appellee's
Brief at 9–15.)
{¶ 13} Applying that objective standard required
under Terry to the totality of the facts and
circumstances in the record, we conclude that no
reasonable suspicion justified the stop.8 The only fact
in the record from which the officers could infer that
criminal activity was afoot was that they heard
gunshots from somewhere to the west. Based on that
fact, it was reasonable to infer that someone,
somewhere, had shot a gun. But this general fact was
insufficient to provide an “objective basis for
suspecting the particular person stopped.” (Emphasis
It is not clear that the trial court applied this standard when,
while ruling on the motion to suppress, it stated: “what's a
reasonable suspicion probably varies from one individual to the
next.” (Feb. 6, 2016 Tr. at 44.) Because reasonable suspicion asks
whether a reasonable person would conclude, based on “the facts
available to the officer at the moment,” that the defendant had
engaged in or was about to engage in criminal activity, it is an
objective standard that should not vary from one individual to
the next. Terry at 21–22, 88 S.Ct. 1868.
8

80

added.) Cortez at 417–18, 101 S.Ct. 690. Hairston was
simply the first person the officers saw after driving
nearly one-half mile from where they stood when they
heard the gunshots. See State v. Stewart, 193 Ohio
App.3d 716, 2011-Ohio-2910, 953 N.E.2d 886 ¶ 15 (8th
Dist.) (stating that police officers' “need to act out of
concern for their own safety” after a report of
gunshots “did not legitimize the indiscriminate stop
and frisk of the first couple that they saw walking
through a parking lot”). No reasonable suspicion
exists where there is an absence of any particularized
connection between the only fact suggesting criminal
activity and the particular person seized for a Terry
stop. See, e.g., United States v. Baldwin, 114
Fed.Appx. 675, 680 (6th Cir. 2004) (affirming decision
to sustain a motion to suppress where, after hearing
gunshots and seeing a “fleeing individual,” officers
seized a defendant sitting in a parked car, as there
had been “no showing of any specific, articulable facts
which gave rise to a reasonable suspicion that [the
driver] was connected to the firing of the gunshots”).
{¶ 14} Furthermore, Hairston's actions immediately
before the officers stopped him demonstrated no
grounds for suspecting him of committing any
criminal act. We have previously observed that
“[r]easonable suspicion that an individual was
involved in a shooting exists when he is seen in the
area where the incident recently occurred, and he is
fleeing.” State v. Hodge, 10th Dist. No. 11AP-1099,
2012-Ohio-4306, 2012 WL 4321165, ¶ 11. Such is not
the case here. Hairston was simply crossing the street
and speaking to someone on a cell phone when the
officers came on him. Although the state emphasizes
that Hairston appeared somewhat nervous, this was
81

not accompanied by the “evasive behavior” or “furtive
movements” that typically accompany nervousness
when cited as a factor contributing to reasonable
suspicion. Illinois v. Wardlow, 528 U.S. 119, 124, 120
S.Ct. 673, 145 L.Ed.2d 570 (2000); United States v.
Caruthers, 458 F.3d 459, 466 (6th Cir. 2006). See also
State v. Anderson, 10th Dist. No. 15AP-924, 2016Ohio-7269, 2016 WL 5908028, ¶ 16 (“Turning and
walking away upon seeing a police officer, or other
nervous and evasive behavior, can be considered by
an officer in the reasonable suspicion determination”).
Given that “some degree of nervousness during
interactions with the police is not uncommon” and, in
this case, the officers stopped Hairston with their
weapons drawn, this factor contributes little, if
anything to the reasonable suspicion inquiry. State v.
Broughton, 2012-Ohio-2526, 969 N.E.2d 810, ¶ 23.
{¶ 15} The contextual factors cited by the state give no
additional support to its argument that reasonable
suspicion justified the Terry stop. An individual's
mere presence in an area of high crime does not
“justify an investigative stop” without additional
factors that demonstrate a particularized reason to
suspect the individual of criminal activity. State v.
Carter, 69 Ohio St.3d 57, 65, 630 N.E.2d 355 (1994),
citing Brown v. Texas, 443 U.S. 47, 52, 99 S.Ct. 2637,
61 L.Ed.2d 357 (1979). See also United States v.
Young, 707 F.3d 598, 603 (6th Cir. 2012) (noting that
“contextual factors, such as high-crime [areas], should
not be given too much weight because they raise
concerns of racial, ethnic, and socioeconomic profiling”
which in this jurist's opinion is un–American.).
Furthermore, the state introduced no evidence to
explain how the timing of the stop, shortly after nine
82

o'clock in the evening, or the mere fact that it was
dark, were indicative of criminal activity. United
States v. Uribe, 709 F.3d 646, 650 (7th Cir. 2013)
(discounting assertion that two a.m. timing of traffic
stop contributed to reasonable suspicion where the
“government did not present any evidence of [the
officer's] experience and expertise or of any officer's
belief that the context of the stop made its timing
suspicious”). At any rate, without a particularized,
objective basis for suspecting that Hairston had
engaged in criminal activity, such contextual factors
cannot create reasonable suspicion. See United States
v. Johnson, 620 F.3d 685 (6th Cir. 2010) (reversing
denial of motion to suppress where the defendant
exhibited no suspicious behavior “the totality of the
relevant circumstances consisted of contextual factors
that would have applied to anyone in the
neighborhood”). For the foregoing reasons, the
circumstances, considered in their totality, fail to
demonstrate the existence of “a particularized and
objective basis” for stopping Hairston. Cortez at 417–
18, 101 S.Ct. 690.
{¶ 16} The state argues that the facts of this case are
similar to State v. Pinckney, 10th Dist. No. 14AP-709,
2015-Ohio-3899, 2015 WL 5638096, in which we
reversed a trial court's decision overruling a
defendant's motion to suppress. In that case, officers
responded to a report that multiple shots had been
fired at an apartment complex. Id. at ¶ 3 & 6. The
officers parked in multiple locations within several
blocks of the apartment and converged on it on foot
from different directions. Id. at ¶ 4. As they
approached, they heard seven more shots that were so
close that the officers “could tell almost exactly where
83

they were coming from.” Id. at ¶ 5. The officers circled
the building with a clear view of the only way in and
out of the parking lot. When they arrived in the
parking lot, one individual in a vehicle began to start
it and drive away, and no one else was around. Id. at
¶ 6. As the officers approached the vehicle with their
weapons drawn, they made multiple commands to the
driver to stop. He did not initially comply, and they
had to tell him “over and over again” to stop before he
did. Id. at ¶ 7. After exiting the vehicle, he told the
officers that he had just seen the two shooters running
away to the north, yet the officers had just come from
that direction. Without being asked, he stated that
there was no gun in the vehicle. Id. at ¶ 8. At that
time, the officers patted the driver down before
searching his vehicle, where they found a weapon in
the glove compartment. Id. at ¶ 9. We held that these
circumstances amounted to reasonable suspicion to
justify the stop. Id. at ¶ 24.
{¶ 17} Pinckney does not support the state's argument.
The tip in Pinckney identified a specific location where
shots had been fired—an apartment complex. As the
officers approached the apartments, they personally
heard more shots from only “200 feet” away and “could
tell almost exactly where they were coming from.” Id.
at ¶ 5. Here, in contrast, Officer Moore heard shots
that “sounded as though they were coming from the
west near the elementary” school, four-tenths of one
mile away, a large area that also encompassed a high
school, fields, and parking lots. (Tr. at 7, 9, & 16.)
Based on personal observation as they approached the
apartments and the parking lot from multiple
directions, the officers in Pinckney knew that no one
else had left the area where the shots were fired other
84

than the particular driver that tried was trying to
leave when they arrived. Officer Moore and his
partner did not have any such assurance that
Hairston was the only possible suspect, as the area in
question was much larger and not subject to
surveillance. Furthermore, the driver in Pinckney
initially failed to comply with the officer's requests,
dubiously claimed that he had seen the shooters go in
the direction the officers had just come from, and,
without being asked, asserted that he had no gun.
Hairston displayed no comparable behavior that was
cause for concern. He was walking and talking on a
cell phone when stopped by Officer Moore and his
partner. Hairston talked “calmly” and was
“compliant,” and Officer Moore stated that he “didn't
blame” Hairston for appearing “somewhat nervous”
when confronted by two officers with their weapons
drawn. (Tr. at 17 & 32.) In short, the facts and
circumstances of Pinckney that provided a
particularized, objective basis for reasonable
suspicion were not present when Officer Moore and
his partner stopped Hairston.
{¶ 18} For the foregoing reasons, we conclude that
Hairston's seizure lacked the reasonable suspicion
required by Terry. The trial court therefore erred
when it overruled Hairston's motion to suppress, and
his assignment of error is sustained. Accordingly, the
judgment of the Franklin County Court of Common
Pleas is reversed, and this cause is remanded to that
court for further proceedings in accordance with law
and consistent with this opinion.
Judgment reversed; cause remanded.
BROWN and LUPER SCHUSTER, JJ., concur.
85

THE COURT OF COMMON PLEAS OF FRANKLIN
COUNTY, OHIO
The State of Ohio, Plaintiff, v. Hairston, Defendant.
(No. 15CR-07-3377—Hearing Held Feb. 8, 2016.)
TRANSCRIPT OF PROCEEDINGS
p. 43, line 25 – p. 44, line 21
THE COURT: I do think there's a little more here
than there was in Parrish because in this case the
officers personally heard the shots, personally knew
where they came from, whereas in Parrish they got a
call of shots fired, so there was just more guesswork
there as to where they came from.
But here they personally heard them and went in that
direction, and the officer said it only took them a
minute or so to get there. And you asked him if he had
a hunch, and he said yeah. Well, he did have a hunch,
but that doesn't necessarily mean that he didn't have
a little more than a hunch when he only saw one
person in the area and didn't see any other cars. All
he has to have is a reasonable suspicion to question
the suspect, and that's what he did, and that led to the
discovery of the firearm.
So I think it's a close call because, you know, what's a
reasonable suspicion probably varies from one
individual to the next. But with all the facts that were
testified to by the officer, I think they had enough to
do a Terry stop. So I'll deny the motion. And I guess
we need to set a date.
86

I do hereby certify that the foregoing is a true, correct,
and complete transcript of the proceedings in this
matter on February 8 and March 17, 2016, taken by
me and transcribed by means of computer. All
exhibits marked and received into evidence remain in
the custody of the Franklin County Prosecutor's
Office.
SEAL OF THE COMMON PLEAS
COURT FRANKLIN COUNTY
s/ Anne I. McBrayer
Anne I. McBrayer, RMR, CRR
Assistant Official Court Reporter

87

